Report No. D-2008-073         March 31, 2008




  Report on the Cost, Oversight, and Impact of
            Congressional Earmarks
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DOI                   Department of the Interior
EPA                   Environmental Protection Agency
GAO                   Government Accountability Office
HHS                   Department of Health and Human Services
USDA                  U.S. Department of Agriculture
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                          March 31, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               ASSISTANT SECRETARY OF THE NAVY
                  (FINANCIAL MANAGEMENT, AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Report on the Cost, Oversight, and Impact of Congressional Earmarks
         (Report No. D-2008-073)


      We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report.

        Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Joseph A. Powell at (703) 601-5953 (DSN329-5953). See Appendix C for the
report distribution. The team members are listed inside the back cover.




                                i)'
                                ioJ;lt~           a~ IJ1O./~~jJ
                                                       i
                                Patricia A. Marsh, CPA
                              Assistant Inspector General
                           Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-073                                                                 March 31, 2008
   (Project No. D2007-D000FP-0254.000)

       Report on the Cost, Oversight, and Impact of Congressional
                               Earmarks

                                    Executive Summary

Introduction. We conducted the audit in response to a request by the
Honorable Tom Coburn, M.D., U.S. Senator from Oklahoma. The Senator was
concerned about the cost, impact, and—in some cases—the ethics of Congressional
earmarks.

Who Should Read This Report and Why? The Under Secretary of Defense
(Comptroller), the Assistant Secretary of the Navy (Financial Management and
Comptroller), and the Assistant Secretary of the Air Force (Financial Management and
Comptroller) should read this report because it discusses the cost, oversight, and impact
of Congressional earmarks in the Department of Defense.

Background. This report is the first of two reports addressing the cost, oversight, and
impact of Congressional earmarks. This report discusses the results of our audit of
Congressional earmarks equal to or greater than $15 million. The second report will
discuss the results of our audit of Congressional earmarks less than $15 million. The
DoD mission is to provide the military forces needed to deter war and to protect the
security of our country. The funding profile for FY 2007 in the DoD FY 2009 budget
request showed that in FY 2007 the Department of Defense received $438 billion to
maintain a high level of military readiness, develop and procure new weapon systems for
ensuring U.S. battlefield superiority, and support our Service members and their families.
The FY 2007 funding profile in the DoD FY 2009 budget request showed that in
FY 2007 the Department of Defense received an additional $154 billion for the Global
War on Terror. Therefore, the funding profile for FY 2007 in the DoD FY 2009 budget
request showed that the Department of Defense received a total of $592 billion.

        The Department of Defense Office of the Inspector General received the
Congressional request to perform an audit of the cost, oversight, and impact of
Congressional earmarks on January 22, 2007. The Congressional request included this
definition of Congressional earmarks.
                        For purposes of this request, a Congressional earmark is a
               provision of law, a directive, or item represented in any table, chart, or
               text contained within a joint explanatory statement or a report
               accompanying a bill (as applicable), that specifies the identity of an
               entity or project, including a defense system, for which funds are
               authorized or made available in that law (or conference report or bill)
               and that was not requested by the President in a budget submission to
               Congress; and the amounts of the funds so authorized or made
               available.
       For the purposes of this audit, we used the FY 2007 Appropriations Act
Conference Report to accompany the FY 2007 Department of Defense Appropriations
Act (H.Rept. 109-676) to determine Congressional earmarks within the Department of
Defense.

Results. Congress included 2,656 earmarks in the FY 2007 DoD Appropriations Act
Conference Report with a funding level totaling $12.143 billion. DoD performs
oversight of earmarks identical to the oversight of other DoD contracts and activities for
68 Congressional earmarks (totaling $6.374 billion) of the 70 Congressional earmarks
that we reviewed (totaling $6.432 billion). The Missile Defense Agency stated that an
allied country administered the mission activities for the other two Congressional
earmark contracts (totaling $58 million) subject to the allied country’s contracting laws
and regulations. Therefore, these two earmarks were the only exceptions we found in our
comparison of the oversight of earmarks to the oversight of other DoD contracts and
similar expenditures. The mission activities funded by the Congressional earmarks were
consistent with fulfilling the DoD mission in another 68 (totaling $6.092 billion) out of
the 70 earmarks we reviewed. Two earmarks (totaling $340 million) did not sufficiently
advance the DoD mission and goals to justify the funding. We determined that the DoD
does not have criteria for centralized tracking of funding execution of Congressional
earmarks at the DoD level. See the Finding section of the report for a detailed discussion.

Management Comments. The Office of the Under Secretary of Defense (Comptroller),
the Department of the Navy, and the Department of the Air Force commented on this
report. The Office of the Under Secretary of Defense (Comptroller) suggested changes to
the dollar amounts in the background section of the report, and we made the suggested
changes. The Assistant Secretary of the Navy (Financial Management and Comptroller)
concurred with the report and noted that Congress had consistently differed from the
DoD in its assessment of how the alternate engine advanced the primary mission and
goals of the agency. The Assistant Secretary of the Air Force (Financial Management
and Comptroller) concurred with the audit as it pertained to each individual earmark and
provided additional discussion on the prioritized requirements identified in the Air Force
budget process and on the impact of Congressional earmarks.




                                            ii
Table of Contents

Executive Summary                                             i

Background                                                   1

Objectives                                                   1

Audit Results
     Cost, Oversight, and Impact of Congressional Earmarks    2


Appendixes
     A. Scope and Methodology                                 7
         Prior Coverage                                       8
     B. Summary of Earmarks Reviewed                          9
     C. Report Distribution                                  10

Management Comments
     Under Secretary of Defense (Comptroller)                13
     Department of the Navy                                  15
     Department of the Air Force                             16
Background
       We conducted the audit in response to a request by the Honorable Tom Coburn,
M.D., U.S. Senator from Oklahoma. The Senator was concerned about the cost, impact,
and—in some cases—the ethics of Congressional earmarks. The request included the
following definition.

                       For purposes of this request, a Congressional earmark is a
              provision of law, a directive, or item represented in any table, chart, or
              text contained within a joint explanatory statement or a report
              accompanying a bill (as applicable), that specified the identity of an
              entity or project, including a defense system, for which funds are
              authorized or made available in that law (or conference report or bill)
              and that was not requested by the President in a budget submission to
              Congress; and the amounts of the funds so authorized or made
              available.

         The DoD mission is to provide the military forces needed to deter war and to
protect the security of our country. The funding profile for FY 2007 in the DoD FY 2009
budget request showed that in FY 2007 the DoD received $438 billion to maintain a high
level of military readiness, develop and procure new weapon systems for ensuring U.S.
battlefield superiority, and support our Service members and their families. The funding
profile for FY 2007 in the DoD FY 2009 budget request showed that in FY 2007 the DoD
received an additional $154 billion for the Global War on Terror. Therefore, the funding
profile for FY 2007 in the DoD FY 2009 budget request showed that the DoD received a
total of $592 billion.

      For the purposes of this audit, we used the FY 2007 DoD Appropriations Act
Conference Report to determine Congressional earmarks for the Department of Defense.
According to the definition from the Congressional request, the FY 2007 Appropriations
Act Conference Report had 2,656 Congressional earmarks totaling $12.143 billion.


Objectives
       Our objective was to determine the total cost and the oversight of Congressional
       earmarks within the Department of Defense. We also determined the overall
       impact of Congressional earmarks on the primary mission and goals of the
       Department of Defense.




                                                  1
              Cost, Oversight, and Impact of
              Congressional Earmarks
              The Congressional request asked the DoD Office of Inspector General to
              determine the total number and cost of Congressional earmarks, the
              oversight of earmarks compared to oversight of other DoD contracts, and
              the overall impact of earmarks on advancing the primary mission and
              goals of the Department of Defense.


Total Number and Cost of Congressional Earmarks
       Congressional Request 1: The total number and cost, including the cost of
       the earmark itself and related costs such as staff time and administration, of
       Congressional earmarks within the programs you monitor.

       The FY 2007 Appropriations Act Conference Report to accompany the FY 2007
       Department of Defense Appropriations Act (109-676) had 2,656 Congressional
       earmarks totaling $12.143 billion. Of the 70 Congressional earmarks we
       reviewed (totaling $6.432 billion), 13 (totaling $2.103 billion) were transfers of
       requests in the President’s budget from one line item to another. A transfer
       moves appropriated funds from one account within the U.S. Treasury to another
       account, or from one program to another program within a U.S. Treasury account.
       Of the 70 earmarks, 3 (totaling $706.8 million) were increases to military
       personnel and reserve accounts for payment to military members. Of the 70
       earmarks, 54 (totaling $3.622 billion) were additions to the President’s budget for
       payment to organizations instead of military members.

       Table 1 shows the number and cost of the earmarks by category. Appendix B
       provides a summary by Military Department and agency of the 70 earmarks we
       reviewed.



                Table 1. Number and Cost of Earmarks by Category

                 Category                        Number of             Total Cost
                                                 Earmarks
                                                                        (billions)

Transfer of Request                                  13                  $2.103

Pay Increases and Reserve Accounts                     3                  0.707

Payments to Organizations                            54                   3.622

Total Earmarks Reviewed                              70                  $6.432



                                            2
      The Department of Defense does not have cost accounting systems to record
      separately the costs related to Congressional earmarks, such as staff time and
      administration. Therefore, we could not determine those costs.


Oversight of Earmarks Compared to Oversight of Other DoD
  Expenditures
      Congressional Request 2: What oversight is conducted on earmarks and
      how this compares to the oversight conducted on other expenditures such as
      grants and contracts.

      The DoD personnel we interviewed and the respondents to our data call said that
      DoD performs oversight of earmarks identical to the oversight of other contracts.
      However, 2 Congressional earmarks (totaling $58.4 million), of the 70 we
      reviewed (totaling $6.432 billion), provided monies to an allied country for the
      Arrow Co-Production ($40 million) and for the Arrow Short Range Ballistic
      Missile Defense ($18.4 million). The Missile Defense Agency stated that
      oversight over the $58.4 million provided to the allied country is performed under
      the allied country’s contracting laws and regulations. These two earmarks were
      the only exceptions we found in our comparison of the oversight of DoD
      earmarks to the oversight of other DoD contracts and similar expenditures. Table
      2 shows the comparison of earmark oversight. Appendix B provides a summary
      by Military Department and agency of the 70 earmarks we reviewed.

 Table 2. Oversight of Earmarks Compared to Oversight of Other DoD Contracts

                 Category                        Number of            Total Value
                                                 Earmarks
                                                                        (billions)

Oversight the Same as Other DoD Contracts             68                 $6.374

Oversight Different Than Other DoD Contracts           2                  0.058
Total Earmarks Reviewed                               70                 $6.432



      Our review of the oversight of earmarks included accounting for earmarks,
      contracting, contract administration, and funds control. Of the 70 earmarks we
      reviewed, 56 were accounted for separately and 14 were reported commingled
      with other funds; 57 had contracts awarded and 13 did not have contracts
      awarded. At this time, DoD Office of the Inspector General is performing a
      separate more detailed audit addressing the contract administration of a smaller
      number of FY 2005 earmarks. The audit of FY 2005 earmarks includes 2 of the
      70 earmarks we reviewed for FY 2007.



                                           3
      The Government Accountability Office report “Congressional Directives:
      Selected Agencies’ Processes for Responding to Funding Instructions,” January
      2008, explains the DoD process for earmarks funds control.

             DoD does not have a centralized tracking and reporting mechanism that
             shows to what extent funding has been obligated and expended in
             accordance with congressional directives. DoD component
             headquarters staff track the amount of funding provided to them for
             individual congressional directives. Program offices track the
             execution of funds for the specific programs covered by the directives
             but are not required to report the status to the components or to the
             OSD [Office of the Secretary of Defense] Comptroller’s office.

             The OSD Comptroller makes an allotment of funding for the
             congressional directives to the other components, and this funding is
             tracked by the various components’ financial management systems
             rather than within a centralized system maintained by OSD.

      We determined that the DoD does not have criteria for centralized tracking of
      funding execution of Congressional earmarks at the DoD level.


Overall Impact of Earmarks on Advancing the Primary
  Mission and Goals of the Department of Defense
      Congressional Request 3: The overall impact of earmarks on advancing the
      primary mission and goals of the agency [DoD].

      The Congressional earmarks we reviewed generally supported the mission and
      goals of the DoD (68 earmarks totaling $6.092 billion). However, two of the
      earmarks (totaling $340 million) did not support the mission and goals of the
      DoD. Table 2 compares the overall impact of earmarks on advancing the primary
      mission of DoD. Appendix B provides a summary by Military Department and
      agency of earmarks reviewed.

  Table 3. Overall Impact of Earmarks on Advancing the DoD Primary Mission

                Category                              Number of                Total Value
                                                      Earmarks
                                                                                 (billions)

Advance the Primary Mission of DoD                         68                        $6.092

Do Not Advance the Primary Mission of                        2                       0.340
DoD
Total Earmarks Reviewed                                    70                        $6.432



                                                4
            Alternate Engine for Joint Tactical Strike Fighter. The Navy and
    Air Force each received a Congressional earmark for $170 million to continue
    development of the Joint Strike Fighter’s alternate engine source, the F136
    engine. The two earmarks, totaling $340 million in FY 2007 funding, support the
    continued development of the F136 engine for competition in production.
    However, the President’s budget for FY 2007 (and the President’s budget for
    FY 2008) did not allow for the funds for the F136. DoD opposed the
    Congressional earmark because the Office of the Secretary of Defense determined
    a single source engine provided the best balance of cost and risk, and continued
    development of the F136 engine would divert funds from higher DoD priorities.
    Independent analyses did not demonstrate a financial benefit in continuing the
    F136, and DoD personnel stated that the non-financial benefits were not worth the
    additional cost.


Summary
    The total number of the Congressional earmarks for DoD in FY 2007 was
    2,656 with a funding level totaling $12.143 billion. DoD performs oversight of
    earmarks identical to the oversight of other DoD contracts and activities for
    68 Congressional earmarks (totaling $6.374 billion) of the 70 Congressional
    earmarks that we reviewed (totaling $6.432 billion). Two Congressional earmark
    contracts (totaling $58 million) were administered by an allied country and were
    not directly under DoD management. The mission activities funded by the
    Congressional earmarks were consistent with fulfilling the DoD mission in
    68 (totaling $6.092 billion) of the 70 earmarks. Two earmarks with a funding
    level of $340 million did not sufficiently advance the DoD mission and goals to
    justify the funding.


Management Comments and Audit Response
    The Office of the Under Secretary of Defense (Comptroller), the Department of
    the Navy, and the Department of the Air Force commented on this report. We
    appreciate the management comments, which contributed to the intent of this
    report.

    Management Comments. The Office of the Under Secretary of Defense
    (Comptroller) suggested changes to the dollar amounts in the background section
    of the report and suggested revising the title for the FY 2007 DoD Appropriations
    Act Conference Report.

    The Assistant Secretary of the Navy (Financial Management and Comptroller)
    concurred with the report and noted that Congress had “consistently differed from
    the Department” in its assessment of how the alternate engine advanced the
    primary mission and goals of the agency.

    The Assistant Secretary of the Air Force (Financial Management and
    Comptroller) concurred with the audit as it pertained to each individual earmark

                                        5
and provided additional discussion on the prioritized requirements identified in
the Air Force budget process and on the impact of Congressional earmarks. The
Air Force comments noted that Congressional earmarks failed to consider the
Services’ prioritized requirements. The Air Force comments concluded that when
Congress adjusts the Services’ priorities, the results may be a force less capable
than from the budget submitted by the President.

Audit Response. The comments from the Office of the Under Secretary of
Defense (Comptroller) are responsive. We revised the dollar amounts in the
background section and we revised the title used for the FY 2007 DoD
Appropriations Act Conference Report.

The Assistant Secretary of the Navy (Financial Management and Comptroller)
comments are responsive. Navy comments on Congressional Request 3 noted
DoD and Congress differing assessments of the F136 engine development.

The Assistant Secretary of the Air Force (Financial Management and
Comptroller) comments are responsive. Air Force comments on Congressional
Request 3 compared Air Force priorities to Congress priorities.

Navy and Air Force comments add elements for consideration regarding the
impact of earmarks on advancing the DoD primary mission and goals.




                                    6
Appendix A. Scope and Methodology
   We conducted this performance audit from August 2007 through February 2008
   in accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our conclusions based on
   our audit objectives. We believe that the evidence obtained provides a reasonable
   basis for our conclusions based on our audit objectives.

   We obtained and reviewed the FY 2007 Appropriation Act Conference Report to
   accompany the FY 2007 Department of Defense Appropriations Act
   (H.Rept. 109-676) for DoD to determine the cost of Congressional earmarks. We
   compared the FY 2007 Appropriation Act Conference Report to a compilation of
   Congressional earmarks prepared by the Under Secretary of Defense
   (Comptroller). We determined the number and cost of Congressional earmarks by
   reviewing and adding the amount from the compilation provided by the Under
   Secretary of Defense (Comptroller).

   We obtained points of contact from Under Secretary of Defense (Comptroller) for
   each Congressional earmark equal to or greater than $15 million to determine
   oversight for Congressional earmarks. We determined oversight for the
   Congressional earmarks through inquiry with the points of contact.

   We inquired with the points of contact whether the Congressional earmarks were
   consistent with and provided support for the DoD mission to determine the
   overall impact of Congressional earmarks on advancing the DoD mission. We
   obtained copies of the contracts and grants awarding the Congressional earmarks.
   The scope of the audit or evaluation was limited in that we did not review the
   management control program.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Use of Technical Assistance. The items reviewed were a census of
   Congressional earmarks equal to or greater than $15 million. Therefore, the DoD
   Office of the Inspector General Quantitative Methods Directorate advised us that
   the results are not statistically projectable to the Congressional earmarks not
   reviewed.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Financial Management high-risk area.




                                       7
Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO), the
      Environmental Protections Agency (EPA), the U.S. Department of Agriculture
      (USDA), the Department of Health and Human Services (HHS), and the U.S.
      Department of the Interior (DOI) issued 5 reports discussing Congressional
      earmarks.

GAO
      GAO Report No. GAO-08-209, “Selected Agencies Processes for Responding To
      Funding Instructions,” January 2008

EPA
      Report No. 2007-P-00024, “Number of and Cost to Award and Manage EPA
      Earmarks Grants, and the Grants’ Impact on the Agency’s Mission,” May 22,
      2007

USDA
      Report No. 50601-15-Te, “Review of Fiscal Year 2005 Congressional
      Earmarks,” March 2007

HHS
      “Review of Fiscal Year 2005 Congressional Earmarks Provided to the
      Department of Health and Human Services,” February 6, 2007

DOI
      “Independent Analysis of Earmarked Funds for the U.S. Department of the
      Interior (DOI) for Fiscal Year 2006,” January 31, 2007




                                        8
 Appendix B. Summary of Earmarks Reviewed
             By Military Department and
             Agency
We asked the points of contact for each of the 70 earmarks in our sample the questions
that we addressed in the body of this report. Those questions are answered in this table.
A more detailed breakout of the information comprising this table may be obtained upon
request.

          Summary of Earmarks Reviewed by Department and Agency
Department   Number of    Is Earmark Contract or   Does Earmark Advance
and Agency Congressional Budget Oversight Done        the DoD Mission?
             Earmarks      the Same as for Other
                                 Activities?
                              Yes            No       Yes          No
Army            16            16              0        16           0
Navy            18            18              0        17           1
Air Force       13            13              0        12           1
Other DoD
 Agencies       23            21              2        23           0
Total           70            68             2         68           2




                                            9
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Ballistic Missile Defense Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          10
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      11
Office of the Under Secretary of Defense
(Comptroller) Comments




                       13
Final Report
 Reference




Revised



Revised


Added




               14
Department of the Navy Comments




                    15
Department of the Air Force Comments




                     16
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Paul J. Granetto
Patricia Marsh
Douglas P. Neville
Joseph A. Powell
Lusk Penn
Kandasamy Selvavel
Donovan Quimby
Yolanda Bailey
Mary Hoover
Henry Matthews
Kea Riddick
William Saunders
Latesha Goode
Erin Hart
